           Audit Report



The Medical Improvement Review
  Standard During Continuing
      Disability Reviews




      A-01-13-23065 | May 2014
MEMORANDUM


Date:      May 19, 2014                                                       Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Medical Improvement Review Standard During Continuing Disability Reviews
           (A-01-13-23065)

           The attached final report presents the results of our audit. Our objectives were to (a) determine
           whether the Social Security Administration would consider beneficiaries disabled using the
           Initial Disability Standard rather than the Medical Improvement Review Standard (MIRS) during
           continuing disability reviews and (b) evaluate data on the MIRS exceptions.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Medical Improvement Review Standard During
Continuing Disability Reviews
A-01-13-23065
May 2014                                                                  Office of Audit Report Summary

Objective                                  Our Findings

To (a) determine whether the Social        We estimated, after all appeals, SSA will pay about $269 million in
Security Administration (SSA) would        benefits until the next CDR due date to about 4,000 adult
consider beneficiaries disabled using      beneficiaries who would not be disabled if SSA used the Initial
the Initial Disability Standard, rather    Disability Standard, rather than MIRS, during a CDR.
than the Medical Improvement Review
Standard (MIRS), during continuing         Additionally, although the cessation determinations were correct,
disability reviews (CDR) and               we found issues with the reason coded for cessation for some types
(b) evaluate data on the MIRS              of MIRS exceptions.
exceptions.
                                           Our Recommendation
Background
                                           SSA should identify and correct the cause of the MIRS exception
Under MIRS, an individual’s disability     coding issues so the Agency will have accurate information on how
continues unless the (1) disabling         often the exceptions are used.
condition has improved since the last
favorable disability determination and     SSA agreed with the recommendation.
(2) individual can engage in substantial
gainful activity.

SSA may apply an exception to MIRS.
The exceptions allow a finding that
disability ceased in limited situations
without showing medical improvement
occurred, but evidence clearly showed
the person should no longer be, or
should never have been, considered
disabled.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Sample Results of MIRS Continuance Cases ............................................................................4
           Individuals Not Disabled .....................................................................................................4
           Individuals Still Disabled.....................................................................................................7
           Insufficient Evidence to Evaluate Claim .............................................................................7
     Exceptions to MIRS ...................................................................................................................7
Conclusions ....................................................................................................................................10
Recommendation ...........................................................................................................................10
Agency Comment ..........................................................................................................................10
Appendix A – The Medical Improvement Review Standard ..................................................... A-1
Appendix B – Scope, Methodology, Sample Results, and Projections ...................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




The Medical Improvement Review Standard During CDRs (A-01-13-23065)
ABBREVIATIONS
ALJ                Administrative Law Judge

CDI                Cooperative Disability Investigations

CDR                Continuing Disability Review

C.F.R.             Code of Federal Regulations

CPD                Comparison Point Decision

CY                 Calendar Year

DDS                Disability Determination Services

MIRS               Medical Improvement Review Standard

OI                 Office of Investigations

OQR                Office of Quality Review

POMS               Program Operations Manual System

Pub. L. No.        Public Law Number

SGA                Substantial Gainful Activity

SSA                Social Security Administration

U.S.C.             United States Code




The Medical Improvement Review Standard During CDRs (A-01-13-23065)
OBJECTIVE
Our objectives were to (a) determine whether the Social Security Administration (SSA) would
consider beneficiaries disabled using the Initial Disability Standard, rather than the Medical
Improvement Review Standard (MIRS), during continuing disability reviews (CDR) and
(b) evaluate data on the MIRS exceptions.

BACKGROUND
SSA is required to perform CDRs for individuals receiving disability benefits under Titles II and
XVI of the Social Security Act. 1 In addition, SSA is required to use MIRS in determining
whether disability benefits should continue. 2 Under MIRS, an individual’s disability continues
unless the (1) disabling condition has improved since the last favorable disability determination
or comparison point decision (CPD) and (2) individual can engage in substantial gainful activity
(SGA). 3

Medical improvement is shown as a decrease in the medical severity of the disabling condition
that was present when the CPD was made. The determination of a decrease in medical severity
must be based on changes—or improvement—in the symptoms, signs, and/or laboratory findings
associated with the disabling condition(s). 4 If SSA determines the individual has medically
improved, it must also determine whether the medical improvement is related to his/her ability to
work.

The Social Security Act provides exceptions to MIRS. 5 These exceptions allow SSA to find
disability ceased in limited situations without showing medical improvement occurred, but
evidence clearly shows the person should no longer be, or never should have been, considered
disabled. 6 There are two groups of exceptions to MIRS for adults. Group I exceptions require a
finding that the individual is not currently disabled (that is, a finding of ability to engage in SGA)
before any finding under the CDR evaluation process that disability has ended. The Group I
exceptions are



1
 Generally, the frequency of CDRs is dependent upon SSA’s assessment of the likelihood of medical improvement.
20 C.F.R. §§ 404.1590(d) and 416.990(d).
2
 MIRS was established with Pub. L. No. 98-460, 98 Stat. 1794 (1984). See also, Social Security Act §§ 223(f) and
1614(a)(4), 42 U.S.C. §§ 423(f) and 1382c(a)(4). However, MIRS does not apply to Title XVI Age-18
Redetermination cases. See Appendix A for additional information.
3
 SSA determines SGA for Title II and XVI adult cases. 20 C.F.R. §§ 404.1594(f) and 416.994(b)(5). See also
SSA, POMS, DI 28005.001 (April 11, 2008), DI 28010.105 (June 12, 2001) and DI 28020.050 (October 1, 1997).
4
    20 C.F.R. §§ 404.1579, 404.1594, and 416.994; SSA, POMS, DI 28010.015 (April 12, 2010).
5
    Social Security Act §§ 223(f) and 1614(a)(4), 42 U.S.C. §§ 423(f) and 1382c(a)(4).
6
 Social Security Act §§ 223(f) and 1614(a)(4); 42 U.S.C. §§ 423(f) and 1382c(a)(4); 20 C.F.R. §§ 404.1579,
404.1594, and 416.994; SSA, POMS, DI 28020.001 (October 6, 1997).



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                                1
      advances in medical or vocational therapy or technology,
      vocational therapy (any additional education or training that improves the individual’s ability
       to meet the vocational requirements of more jobs),
      new or improved diagnostic or evaluative techniques, and
      substantial evidence demonstrates that any prior disability decision was made in error.

Group II exceptions do not require a medical determination of disability and are

      fraud or similar fault, 7
      failure to cooperate or whereabouts unknown, 8 and
      failure to follow prescribed treatment. 9

See Appendix A for additional information on MIRS and the exceptions.

Generally, State disability determination services (DDS) make the initial CDR determination
using SSA’s regulations. 10 If an individual disagrees with the initial determination, SSA’s
regulations give him/her the right to file an appeal within 60 days from the date of notification of
the determination. In most cases, an individual may request up to four levels of appeal:
(1) reconsideration by a DDS, (2) hearing by an administrative law judge (ALJ), (3) review by
the Appeals Council, and (4) review by a Federal court. 11

In September 2012, then-SSA Commissioner Astrue requested that we review the MIRS process
to determine how many beneficiaries could be removed from the disability rolls if MIRS were
not in place.



7
  Fraud exists when a claimant (or any other person acting on the claimant’s behalf) with intent to defraud either
makes or causes to be made a false statement or a misrepresentation of a material fact for use in determining rights
to Title II or XVI benefits; or conceals or fails to disclose a material fact for use in determining rights to Title II or
XVI benefits. Similar fault does not require fraudulent intent. It exists when a claimant or any other person either
knowingly makes an incorrect or incomplete statement that is material to the determination or knowingly conceals
information that is material to the determination. 20 C.F.R. §§ 404.1594(e)(1) and 416.994(b)(4)(i). See also SSA,
POMS, DI 27505.015 (June 5, 2008).
8
  A failure to cooperate or whereabouts unknown issue may arise at any point during a CDR when a disabled
individual does not furnish medical or other evidence, fails to attend a consultative examination by a certain date, or
cannot be located. 20 C.F.R. §§ 404.1594(e)(2), 404.1594(e)(3), 416.994(b)(4)(ii) and 416.994(b)(4)(iii). See also
SSA, POMS, DI 28075.005 (December 28, 2012).
9
 If treatment can restore the ability to work, an individual must follow prescribed treatment to receive benefits. If
prescribed treatment is not followed without good cause, SSA should cease benefits when performing a CDR.
20 C.F.R. §§ 404.1594(e)(4) and 416.994(b)(4)(iv). See also SSA, POMS, DI 23010.005 (March 30, 2007).
10
  CDRs are performed by DDSs in each of the 50 States, plus the District of Columbia, Puerto Rico, Guam, the
U.S. Virgin Islands, and SSA Federal units including the Offices of Central Operation and International Operations.
11
     20 C.F.R. §§ 404.900 through 404.985 and 416.1400 through 416.1485.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                                          2
In April 2013, we obtained a file of all CDRs processed in Calendar Year (CY) 2012. From this
file, we identified a population of 196,183 adults with a CDR continuance because of no medical
improvement in CY 2012. We selected a random sample of 275 for review and forwarded 62 of
these cases in which we needed assistance to SSA for expert case analysis. We asked SSA to
review the cases using the Initial Disability Standard, rather than MIRS. 12 Then, SSA
determined whether an initial allowance would be granted for disability benefits based on the
available evidence.

We also identified a separate population of 9,517 adults in SSA’s systems as having a CDR
cessation because of a MIRS exception in CY 2012. We selected a random sample from each
type of exception—for a total of 196 cases—for review. 13

For our scope, methodology, and sample results, see Appendix B.

RESULTS OF REVIEW
We estimated, after all appeals, SSA will pay about $269 million in benefits until the next CDR
due date to about 4,000 adult beneficiaries who would not be disabled if SSA used the Initial
Disability Standard, rather than MIRS, during a CDR. 14 Additionally, although the cessation
determinations were correct, we found issues with the reason coded for cessation for some types
of MIRS exceptions.




12
  SSA uses different adjudicative standards for initial disability claims and CDRs. The Agency has a 5-step
sequential evaluation process to adjudicate initial disability claims and an 8-step evaluation process for CDRs.
20 C.F.R. §§ 404.1520(a)(4), 404.1594(f), 416.920(a)(4) and 416.994(b)(5). See also SSA, POMS, DI 22001.035
(March 3, 2003) and DI 28005.010 (October 1, 1997).
13
  We only reviewed cases with a CDR completed in CY 2012. SSA expressed concerns that our results may be
understated because our population of individuals with full medical CDRs conducted in CY 2012 did not include
some individuals who did not have a CDR but may not be disabled if MIRS were not in place. The Agency uses a
profiling methodology to identify individuals for CDRs who are most likely to be ceased under current rules and
regulations.
14
   We initially estimated SSA would pay about $573 million in benefits until the next CDR due date to about
8,500 beneficiaries who would no longer be disabled if SSA used the Initial Disability Standard, rather than MIRS,
during the initial CDR. We reduced this estimate to reflect the estimated rate of cessations reversed for adults, after
all appeals, reported by the Agency. SSA, Annual Report on Continuing Disability Reviews Fiscal Year 2011,
September 2013. Furthermore, we did not adjust our estimates to reflect beneficiaries who might leave the disability
rolls before the next CDR due date or for future cost of living adjustments in benefits.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                                  3
Sample Results of MIRS Continuance Cases
Our review of 275 sample cases (with a CDR continuance because of no medical improvement)
found that if SSA used the Initial Disability Standard instead of MIRS,

    12 individuals would not be                                     Figure 1: Sample Results
     considered disabled; 15
                                                                                                          Unable to
    242 individuals would be disabled;                                                                   Determine
     and                                                                                                   21 Cases
                                                                                                             8%

    21 individuals had insufficient
     evidence available to determine
     whether the individual would be                   Disabled                                           Not Disabled
                                                       Using the
     disabled.                                           Initial
                                                                                                           Using the
                                                                                                             Initial
                                                       Disability                                          Disability
Individuals Not Disabled                               Standard
                                                       242 Cases
                                                                                                           Standard
                                                                                                           12 Cases
                                                          88%                                                 4%
We found 12 individuals would not
have been considered disabled had SSA used the Initial Disability Standard, rather than MIRS,
during a CDR. 16 Had these 12 beneficiaries applied for disability benefits in 2013—at the time
of our review—SSA would have denied the claims because the individuals were not disabled
based on the available evidence. However, because of MIRS, SSA did not evaluate the claims as
if the individuals were filing for benefits for the first time. Instead, under MIRS, SSA had to
determine whether the beneficiaries had medically improved since the initial claim or last CDR
(whichever is later).




15
  We forwarded these 12 cases to SSA for expert case review, and it concluded the evidence in these cases did not
support awarding disability benefits. Therefore, these individuals would not be disabled if currently evaluated as an
initial claim. Additionally, these 12 cases were based on initial CDR determinations, and this number would likely
decrease after all appeals were completed.
16
   In these 12 CDRs in CY 2012, the DDSs did not find any MIRS exceptions applied. In each case, the DDS made
a reasonable and programmatically correct decision to continue benefits under the current laws and
regulations. However, the determination of whether there has been significant medical improvement related to the
ability to work requires judgment. There are cases where two independent adjudicators can reasonably come to
different conclusions when considering all the evidence. So, it is possible that another adjudicator would have made
a different judgment to cease benefits—either demonstrating medical improvement or using one of the MIRS
exceptions—and it would still be a reasonable and programmatically correct decision.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                                   4
     Of these 12 cases, 2 were originally allowed benefits at the initial level, 2 were originally
     allowed benefits at the reconsideration level, 17 and 8 were originally allowed benefits at the
     hearing level (see Table 1). For 11 of these 12 beneficiaries, the 2012 CDR was their first
     review since the original allowance. SSA had previously continued the remaining beneficiary’s
     benefits during a CDR in 2009.

     All 12 cases were originally allowed benefits before December 2010. In recent years, SSA has
     improved the disability decision process. These areas of improvement include the following.

     1. A 3-phase training program for ALJ and hearing office supervisors. 18

     2. The Findings Integrated Templates initiative to improve the quality and consistency of ALJ
        decisions by providing thousands of standard decisional outcomes for various claim types. 19

     3. A quality review process for cases at the hearing level. 20

                       Table 1: Individuals Not Disabled Under Initial Disability Standard
                                                          Comparison                                                 Next
                           Age at       Allowance                            Primary                   Monthly
Case           State                                        Point                             Title                 CDR Due
                           CDR            Level                             Impairment                 Benefit
                                                           Decision                                                  Date
                                                                           Affective
 1         Mississippi       38      Reconsideration        Jan. 2005                           II        $1,366 Dec. 2018
                                                                           Disorders
                                                                           Affective
 2         Illinois          46      Reconsideration        Dec. 2002                           II        $1,049 Mar. 2019
                                                                           Disorders
                                                                           Affective          II &
 3         New York          28      Hearing                May 2007                                        $508 Mar. 2015
                                                                           Disorders          XVI
                                                                           Affective
 4         Washington        46      Initial                June 2007                           II        $1,872 Dec. 2018
                                                                           Disorders
                                                                           Disorders of
 5         Tennessee         48      Hearing               Nov. 2010                            II          $930 Feb. 2019
                                                                           Back




     17
       If the claimant is dissatisfied with the DDS initial determination, the claimant may request that the DDS
     reconsider it. Also, a claimant may request a hearing before an ALJ if he/she is dissatisfied with the reconsideration
     determination. SSA eliminated the reconsideration step for DDSs participating in the Disability Redesign Prototype
     (Alabama, Alaska, California—Los Angeles North and Los Angeles West Branches, Colorado, Louisiana,
     Michigan, Missouri, New Hampshire, New York, and Pennsylvania). Prototype provisions apply only for initial
     claims but not CDRs.
     18
       SSA OIG, Training of New Administrative Law Judges at the Office of Disability Adjudication and Review
     (A-12-11-11126), October 2011, and Training and Development of Hearing Office Group Supervisors
     (A-12-12-11240), December, 2012.
     19
      SSA OIG, Office of Disability Adjudication and Review Decision-Writing Process (A-02-09-19068),
     November 2010.
     20
          SSA OIG, Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289), January 2013.



     The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                                  5
                                                   Comparison                                         Next
                       Age at      Allowance                       Primary                 Monthly
Case        State                                    Point                         Title             CDR Due
                       CDR           Level                        Impairment               Benefit
                                                    Decision                                          Date
                                                                  Disorders of
 6       Ohio            43     Hearing              Oct. 2004                      II        $755 Apr. 2019
                                                                  Back
                                                                  Disorders of
 7       Michigan        38     Hearing             May 2009                        II        $821 Oct. 2015
                                                                  Back
                                                                  Disorders of
 8       Florida         53     Hearing             June 2006                       II        $947 Nov. 2019
                                                                  Back
                                                                  Borderline
                                                                                   II &
 9       Alabama         27     Initial              July 2008    Intellectual                $718 Apr. 2015
                                                                                   XVI
                                                                  Functioning
                                                                  Fracture of
 10      Mississippi     31     Hearing             June 2010                       II      $1,411 Sept. 2015
                                                                  Lower Limb
                                                                  Open Wound
 11      Indiana         38     Hearing             Apr. 2009     of Upper          II        $880 June 2015
                                                                  Limb
 12      Texas           46     Hearing             Aug. 2010     Osteoarthritis    II        $778 May 2019
      Averages           40                                                                 $1,003

      For example, in June 2010, an ALJ allowed Title II disability benefits to a Mississippi man who
      sustained severe injuries to his right leg and one finger on his left hand in a motorcycle accident.
      In his decision, the ALJ indicated that medical improvement was expected with appropriate
      treatment and recommended a CDR in 24 months. In October 2012, when the beneficiary was
      31 years old, SSA conducted a CDR, determined his condition had not significantly improved,
      and continued his benefits. We referred this case to SSA for expert review, and it found the
      beneficiary’s injuries had healed, but he still had some functional limitations. SSA determined
      the claimant could perform a full range of sedentary work and would not be disabled under the
      criteria for initial disability claims. At the time of the CDR, this claimant was receiving
      $1,411 in monthly disability benefits and could receive over $50,000 between the last CDR in
      October 2012 and the next CDR in September 2015.

      In another example, a 46-year-old man from Washington was allowed Title II disability benefits
      in June 2007 because of a depressive disorder. In January 2012, SSA completed a CDR and
      continued benefits. The Agency found the beneficiary’s condition had not significantly
      improved, and he still had a bipolar affective disorder with mild depressive symptoms and a
      generalized anxiety disorder. We referred this case to SSA for expert review. SSA found he had
      some short-term memory issues with significant stress or depressive symptoms, but he had a
      fairly broad range of daily activities. The evidence suggested that the claimant would have some
      moderate limitations in understanding and memory, sustaining concentration and persistence,
      and engaging in social interactions. SSA found the beneficiary would not be disabled under the
      criteria for initial disability claims. At the time of the CDR, this claimant was receiving
      $1,872 in monthly disability benefits and could receive over $157,000 between the last CDR in
      January 2012 and the next CDR due in December 2018.



      The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                6
Individuals Still Disabled
We found 242 of our sampled 275 individuals would still be disabled if SSA used the Initial
Disability Standard, rather than MIRS, during the CDR. For example, a 38-year-old New York
woman was allowed Title XVI benefits in July 2003 because of bipolar disorder, dissociative
identity disorder, epilepsy, fibromyalgia, and scoliosis. A CDR completed in April 2012 found
continued mental illness with schizoaffective disorder, suicide attempts, and multiple inpatient
psychiatric hospitalizations. Therefore, benefits were continued. We forwarded this case to SSA
for expert review. It determined the medical evidence showed a favorable determination was
appropriate using the Initial Disability Standard.

Insufficient Evidence to Evaluate Claim
The claims folders for 21 individuals did not have sufficient evidence to determine whether the
individual would be disabled if SSA used the Initial Disability Standard, rather than MIRS,
during the CDR. Although the evidence in these cases was sufficient for SSA to adjudicate these
claims under MIRS at the time of the CDRs, we could not determine whether the person was
disabled under the Initial Disability Standard. During our review, we did not develop new
evidence (such as purchasing a consultative examination) or obtain evidence from prior filings
that DDS did not scan into the electronic folder.

Each year, SSA’s Office of Quality Review (OQR) examines a number of CDR determinations
to assess their accuracy. OQR determines whether the cases conformed to SSA’s regulations,
rulings, policies, and procedures. In FY 2012, OQR reviewed 24,022 initial CDR determinations
(12,900 continuances and 11,122 cessations) and reported a 97.9-percent accuracy rate.
Although OQR did not review any of the 21 CDR continuances in our sample, we did not
question the accuracy of the determinations.

Exceptions to MIRS
The Social Security Act provides exceptions to MIRS. 21 These exceptions allow SSA to find
disability ceased in limited situations where no medical improvement occurred, but evidence
clearly shows the person should no longer be considered disabled or never should have been
considered disabled. 22

In CY 2012, SSA conducted initial medical CDRs for 272,244 adults and ceased benefits to
39,660, for a 15-percent initial cessation rate. Of these cessations, the DDSs 23 indicated they



21
     Social Security Act §§ 223(f) and 1614(a)(4), 42 U.S.C. §§ 423(f) and 1382c(a)(4).
22
  Social Security Act §§ 223(f) and 1614(a)(4); 42 U.S.C. §§ 423(f) and 1382c(a)(4); 20 C.F.R. §§ 404.1579,
404.1594, and 416.994; SSA, POMS, DI 28020.001 (October 6, 1997).
23
  CDRs are performed by DDSs in each of the 50 States, plus the District of Columbia, Puerto Rico, Guam, the
U.S. Virgin Islands, and SSA Federal units including the Offices of Central Operation and International Operations.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                               7
used MIRS exceptions for 9,517 individuals—1,570 Group I exceptions and 7,947 Group II
exceptions, based on data on these CDRs in SSA’s systems, as shown in Table 2.

We reviewed a sample of cases from each type of MIRS exception. Although the cessation
determinations were correct, we found issues with the reason coded for cessation for some types
of exceptions. For example, none of the cases identified with the “Advances in Medical or
Vocational Therapy or Technology” exception codes were correct because the DDS actually
ceased these cases as “Medical Improvement Related to the Ability to Work.” Conversely, DDS
staff identified other MIRS exception cases correctly, such as “Whereabouts Unknown” cases.
SSA informed us it previously reviewed CY 2012 CDR data and found similar results regarding
how often staff used the MIRS exceptions and coded them in its systems. The Agency could not
determine why the data for these cases were incorrect but planned to evaluate the use of the
MIRS exceptions nationwide.

           Table 2: MIRS Exceptions – Sample Case Results – by Exception Type 24

                                                    Number                                         Exception
                                                                  Sample        Exception          Not Used
                  Exception                         in SSA’s
                                                                   Size           Used            (miscoded as an
                                                    Systems                                         exception)
                                              Group I Exceptions
 Advances in Medical or Vocational
                                                    949       25                  0       0%       25       100%
 Therapy or Technology
 Vocational Profile Enhanced By Vocational
                                                    350       25                  3      12%       22        88%
 Therapy
 New or Improved Diagnostic Techniques or
 Evaluation Show Impairment(s) Not as               135       25                  9      36%       16        64%
 Disabling as Considered to be Previously
 Prior Favorable Medical Determination of
                                                    136       25                 20      80%        5        20%
 Entitlement to Benefits Was Based on Error
 Subtotal                                         1,570      100                 32     32%        68        68%
                                         Group II Exceptions
 Failure to Cooperate                             7,788       50                 50    100%         0         0%
 Whereabouts Unknown                                137       25                 25    100%         0         0%
 Failure to Follow Prescribed Treatment              22       21                 20     95%         1         5%
 Subtotal                                         7,947       96                 95     99%         1         1%
 Total                                            9,517      196                127     65%        69        35%




24
  We replaced 15 sample cases in which the CDR documents were not in the electronic disability folder, one case
that changed to a continuance after quality review, one case in which the cessation determination was vacated, and
one case that became an Age 18 Redetermination after the CDR was initiated. Additionally, one of the 22 “Failure
to Follow Prescribed Treatment” cases was not in the electronic disability folder.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                                  8
                 Table 3: MIRS Exceptions – Sample Case Results – by DDS

                                                   Number                   Exception
                                                               Exception    Not Used
                           DDS                       in
                                                                 Used       (miscoded as
                                                   Sample                   an exception)
          Alabama                                        5              2             3
          Arkansas                                       1              1             0
          California                                    14              9             5
          Colorado                                       1              1             0
          Connecticut                                    5              5             0
          District of Colombia                           2              2             0
          Florida                                       13             13             0
          Georgia                                        4              3             1
          Idaho                                          1              1             0
          Illinois                                      14              4            10
          Indiana                                        4              4             0
          Iowa                                           3              1             2
          Kansas                                         2              2             0
          Kentucky                                       2              2             0
          Maine                                          2              2             0
          Maryland                                       2              1             1
          Massachusetts                                  1              1             0
          Michigan                                       4              4             0
          Minnesota                                      1              0             1
          Mississippi                                   17              4            13
          Missouri                                       4              4             0
          Montana                                        1              0             1
          Nevada                                         4              2             2
          New Jersey                                     6              6             0
          New Mexico                                     1              0             1
          New York                                      11              8             3
          Office of International Operations             1              1             0
          Ohio                                           5              5             0
          Oklahoma                                       2              2             0
          Oregon                                         2              0             2
          Pennsylvania                                  18             11             7
          Rhode Island                                   1              1             0
          South Carolina                                 9              8             1
          Tennessee                                     18              7            11
          Texas                                         10              5             5
          Washington                                     4              4             0
          Wisconsin                                      1              1             0
          Total                                        196            127            69




The Medical Improvement Review Standard During CDRs (A-01-13-23065)                         9
For example, the Tennessee DDS ceased benefits for a 42-year-old woman during an initial CDR
in May 2012. The DDS had allowed benefits in 2008 because of affective disorders and anxiety.
The initial CDR examiner found significant medical improvement and ceased her benefits.
However, in processing the case, the examiner used the code for the MIRS exception, “Advances
in Medical or Vocational Therapy or Technology.” On reconsideration, another examiner
reversed the cessation because the beneficiary’s condition had improved but not significantly
enough to allow her to return to work.

The Illinois DDS ceased benefits for a 51-year-old man during an initial CDR in May 2012. The
DDS had allowed his claim in 2008 because of end-stage renal disease that required dialysis.
During the CDR, the examiner determined the medical evidence used to document the dialysis
belonged to another individual. Therefore, the original DDS allowed the claim in error because
the examiner had put the wrong evidence in this beneficiary’s claims folder. The cessation was
upheld on appeal.

In another case, the South Carolina DDS ceased benefits for a 45-year-old man during the initial
CDR in April 2012. An ALJ had allowed benefits in 2008 because of a seizure disorder and
Sarcoidosis, which prevented all work. At the time of the allowance, he was having two or three
seizures a week. The initial CDR examiner found he was not taking his medication as prescribed
because tests showed his medication levels significantly below therapeutic levels and ceased his
benefits because of “Failure to Follow Prescribed Treatment.” On reconsideration, another
examiner reversed the cessation because the initial examiner did not consider all the
beneficiary’s impairments. The combination of his seizure impairment, along with Sarcoidosis,
asthma, high blood pressure, neuropathy, and a history of neck fractures with cervical
discectomies in November 2012, prevented him from returning to work.

CONCLUSIONS
We estimated, after all appeals, SSA will pay about $269 million in benefits until the next CDR
due date to about 4,000 adult beneficiaries who would not be disabled if SSA used the Initial
Disability Standard, rather than MIRS, during a CDR.

Additionally, although the cessation determinations were correct, we found issues with the
reason coded for cessation for some types of MIRS exceptions.

RECOMMENDATION
We recommend SSA identify and correct the cause of the MIRS exception coding issues so the
Agency will have accurate information on how often the exceptions are used.

AGENCY COMMENT
SSA agreed with the recommendation. See Appendix C.




The Medical Improvement Review Standard During CDRs (A-01-13-23065)                           10
                                     APPENDICES




The Medical Improvement Review Standard During CDRs (A-01-13-23065)
Appendix A – THE MEDICAL IMPROVEMENT REVIEW
             STANDARD
The Medical Improvement Review Standard (MIRS) was established under the Social Security
Disability Benefits Reform Act of 1984. 1

One of the basic purposes of this legislation was to reemphasize congressional intent that there
be national uniformity in the disability programs under standards established by Congress. In
general, this legislation allowed the Social Security Administration (SSA) to terminate disability
benefits only if there was substantial evidence that showed the individual’s disability had
medically improved, and the individual could perform substantial gainful activity.

Specifically, information concerning the individual's impairment(s) during the prior
determination is reviewed in deciding whether the individual is still disabled under MIRS. For a
Title II or adult Title XVI beneficiary, disability will cease only when (1) there has been any
medical improvement (related to the ability to work) in the individual's impairment(s) or certain
exceptions to medical improvement apply and (2) the physical and/or mental impairment(s),
together with the vocational profile (that is, age, education and work experience), where
appropriate, does not prevent the individual from engaging in substantial gainful activity, unless
an exception applies (that is, fraud, error on the face of the original determination, etc.).

Continuing Disability Reviews and Profiling Process
SSA conducts continuing disability reviews (CDR) using one of two methods—some cases are
sent to the disability determination services (DDS) for a full medical review while others are
completed by using the mailer process.

The mailer process consists of two tools: (1) a profiling system that uses data from SSA’s
records to determine the likelihood of medical improvement for disabled beneficiaries and
(2) the individuals’ responses to a brief mailer questionnaire. 2



1
  Pub. L. No. 98-460, 98 Stat. 1794 (1984). Before 1980, SSA reviewed a small percentage of disability cases in
which: 1) at the time of the initial determination, it was expected that the beneficiary’s medical condition would
improve; 2) the beneficiary’s earnings record indicated work activity; or 3) a beneficiary voluntarily reported work
activity or medical improvement. The Social Security Disability Amendments of 1980, Pub. L. No. 96-265,
94 Stat. 460 (1980) required the Secretary of Health and Human Services to review the status of all non-permanently
disabled Title II beneficiaries every 3 years. This process resulted in SSA’s ceasing benefits to large numbers of
beneficiaries whose benefits were later found to be erroneously terminated and reinstated after appeal. Most of the
courts of appeal ruled that SSA must apply some form of a medical improvement standard or apply a presumption of
continuing disability before benefits could be terminated. The Social Security Disability Benefits Reform Act of
1984 included establishment of MIRS to address unforeseen hardships to beneficiaries whose benefits were
terminated even though their conditions may have been unchanged from the time they were awarded benefits.
2
    The mailer process is not used for Title XVI disabled children.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                             A-1
Most cases profiled as having a high likelihood of medical improvement are sent to the DDSs for
a full medical review. Generally, other cases profiled as having a medium or low likelihood of
medical improvement are sent a mailer. If, based on a review of the completed mailer, there is
an indication of medical improvement, SSA sends the case for a full medical review. Otherwise,
SSA decides based on the mailer response not to initiate a full medical review and the case is
scheduled for a future CDR.

Exceptions to MIRS
The Social Security Act provides exceptions to MIRS for adults. 3 These exceptions allow SSA to
find disability ceased in limited situations without showing medical improvement occurred, but
evidence clearly shows the person should no longer be considered disabled or never should have
been considered disabled. 4 There are two groups of exceptions to MIRS.

Group I Exceptions to MIRS
Group I exceptions require a finding that the individual is not currently disabled (that is, a
finding of ability to engage in substantial gainful activity) before any finding under the CDR
evaluation process that disability has ended. The Group I exceptions are as follows.

      Advances in Medical or Vocational Therapy or Technology. This exception may apply when
       evidence shows the individual is receiving services that reflect advances in medical or
       vocational therapy or technology (related to the ability to work).

      Vocational Therapy. Vocational therapy (related to the individual’s ability to work) includes
       any additional education or training that improves the individual’s ability to meet the
       vocational requirements of more jobs.

      New or Improved Diagnostic or Evaluative Techniques. Changing methodologies and
       advances in medical and other diagnostic techniques or evaluations have improved methods
       for diagnosing, measuring, and documenting the effects of various impairments on the ability
       to do work. Where, by such new or improved methods, substantial evidence shows an
       impairment(s) is not as severe as was determined at the time of the most recent favorable
       decision, such evidence may serve as a basis for a finding of no longer disabled, if the
       individual can currently engage in substantial gainful activity. Under this exception,
       however, the new or improved techniques must have become generally available after the
       date of the most recent favorable decision.

      Substantial Evidence Demonstrates That Any Prior Disability Decision Was In Error. There
       are three types of errors considered under this exception.


3
    Social Security Act §§ 223(f) and 1614(a)(4), 42 U.S.C. §§ 423(f) and 1382c(a)(4).
4
 Social Security Act §§ 223(f) and 1614(a)(4); 42 U.S.C. §§ 423(f) and 1382c(a)(4); 20 C.F.R. §§ 404.1579,
404.1594, and 416.994; SSA, POMS, DI 28020.001 (October 6, 1997).



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                          A-2
         Error on the Face of the Record. The evidence shows on its face that the decision in
          question should not have been made, including cases where evidence was misread or an
          adjudicative standard was misapplied.

         Required and Material Evidence was Missing. If, at the time of the prior decision,
          required and material evidence of the severity of the impairment(s) was missing and the
          evidence in question becomes available upon review and shows that if it had been present
          before, the beneficiary would not have been found to be disabled.

         New Evidence Related to the Prior Determination. If new evidence related to the prior
          determination refutes the conclusions that were based on the prior evidence and
          substantial evidence shows that had the new evidence been considered at the time of the
          prior decision, the claim would not have been allowed or continued.

Group II Exceptions to MIRS
Group II exceptions do not require a finding of current disability. The Group II exceptions are

     Fraud or Similar Fault. Fraud exists when a claimant (or any other person acting on the
      claimant’s behalf) with intent to defraud either makes or causes to be made a false statement
      or a misrepresentation of a material fact for use in determining rights to Title II or XVI
      benefits; or conceals or fails to disclose a material fact for use in determining rights to Title II
      or XVI benefits. Similar fault does not require fraudulent intent. It exists when a claimant or
      any other person either knowingly makes an incorrect or incomplete statement that is
      material to the determination; or knowingly conceals information that is material to the
      determination. 5

     Failure to Cooperate or Whereabouts Unknown. This may arise at any point during a CDR
      when a disabled individual does not furnish medical or other evidence, fails to attend a
      consultative examination by a certain date, or cannot be located. 6

     Failure to Follow Prescribed Treatment. If treatment can restore the ability to work, an
      individual must follow prescribed treatment to receive benefits. If prescribed treatment is not
      followed without good cause, an individual cannot be found disabled or under a continuing
      disability, or blind, if currently receiving benefits. 7




5
    SSA, POMS, DI 27505.015 (June 5, 2008).
6
    SSA, POMS, DI 28075.005 (December 28, 2012).
7
    SSA, POMS, DI 23010.005 (March 20, 2007).



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                   A-3
Appendix B – SCOPE, METHODOLOGY, SAMPLE RESULTS,
             AND PROJECTIONS

To achieve our objective, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.

   Reviewed prior Office of the Inspector General reports related to continuing disability
    reviews (CDR) and the hearings process.

   Reviewed SSA’s Annual Report of Continuing Disability Reviews for Fiscal Years
    2006 through 2010 and Report on Continuing Disability Reviews Resulting from Work
    Activity (January 26, 2011).

   Obtained data on all medical CDRs processed in Calendar Year (CY) 2012 from SSA’s
    records of CDR determinations, known as the SSA-832/833 file. From this file, we
    identified a population of 196,183 adults with a CDR continuance due to no medical
    improvement in CY 2012.

   Selected a valid random sample of 275 for detailed analysis. For each case, we reviewed the
    electronic disability folder and determined whether the beneficiary or recipient would have
    been disabled if SSA used the Initial Disability Standard, rather than the Medical
    Improvement Review Standard (MIRS), during the CDR, based on the available evidence
    from the CDR and prior determinations. We assessed these claims using the Initial Disability
    Standard, rather than MIRS.

   Reviewed the 275 sample cases and found

       213 cases – the beneficiary would be disabled if SSA used the Initial Disability Standard,
        rather than MIRS, during the CDR and

       62 cases – we needed expert assistance to determine whether the beneficiary would be
        disabled if SSA used the Initial Disability Standard. For some of these, we did not have
        the knowledge or expertise to make a conclusion, especially for claims with mental
        impairments, which may have needed medical or psychological consultant reviews or
        vocational assessments. For others, we thought an adjudicator might need more evidence
        to make an initial determination.

   Provided 62 cases to SSA to determine whether, if the claim were an initial disability claim
    instead of a CDR, would an initial level adjudicator allow the claim, based on the available
    evidence from the CDR folder and prior files. For each of these 62 cases, SSA provided a
    short summary of its review and concluded: “Evidence supports an initial allowance,”
    “Evidence does not support an initial allowance,” or “Evidence is insufficient to make an
    initial determination.”


The Medical Improvement Review Standard During CDRs (A-01-13-23065)                            B-1
   Projected the number of beneficiaries who would not be disabled if SSA used the Initial
    Disability Standard, rather than MIRS, during the CDR, based on the sample of 275 cases. In
    addition, we projected the amount of benefits paid to these beneficiaries until the next CDR
    due date.

   Obtained SSA’s Annual Report on Continuing Disability Reviews Fiscal Year 2011. There
    were 20,281 initial cessations from full medical CDRs for adult beneficiaries. The Agency
    estimated 9,586 (47 percent) of these would remain ceased after all appeals.

   Reduced our estimates to reflect the estimated rate of cessations reversed for adult
    beneficiaries, after all appeals, reported by the Agency in Fiscal Year 2011.

   Identified a population of 9,517 adults in SSA’s 832/833 file as having benefits ceased in
    CY 2012 based on an exception to MIRS. The population by type of exception is below.

        949 individuals - Benefited from Advances in Medical or Vocational Therapy or
         Technology.

        350 individuals - Vocational Profile Enhanced by Vocational Therapy.

        135 individuals - New or Improved Diagnostic Techniques or Evaluation Show
         Impairment(s) Not as Disabling as Considered to be at the Time of Most Recent Prior
         Favorable Medical Determination.

        136 individuals - Substantial Evidence that Any Prior Favorable Medical Determination
         of Entitlement to Benefits Was Based on Error.

        7,788 individuals - Failure to Cooperate.

        137 individuals - Whereabouts Unknown.

        22 individuals - Failure to Follow Prescribed Treatment.

   Selected 21 failure to follow prescribed treatment cessations, 1 a valid random sample of
    50 cases from the failure to cooperate cessations, and valid random samples of 25 from each
    of the other exception cessation groups, for a total of 196 sample cases. For each sample
    case, we reviewed the electronic disability folder and SSA’s systems to determine whether
    the DDS used a MIRS exception.




1
 One of the 22 “Failure to Follow Prescribed Treatment” cases was not in the electronic disability folder.
Therefore, we did not review it as part of the sample. Additionally, we replaced 15 sample cases in which the CDR
documents were not in the electronic disability folder, one case that changed to a continuance after quality review,
one case in which the cessation determination was vacated, and one case that became an Age 18 Redetermination
after the CDR was initiated.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                              B-2
We only reviewed cases with a CDR completed in CY 2012. SSA expressed concerns that our
results may be understated because our population of individuals with full medical CDRs
conducted in CY 2012 did not include some individuals who did not have a CDR but may not be
disabled if MIRS were not in place. The Agency uses a profiling methodology to identify
individuals for CDRs who are most likely to be ceased under current rules and regulations.

We determined the computer-processed data from the file of all CDR determinations in CY 2012
(SSA’s 832/833 file) were sufficiently reliable for our intended use. We conducted tests to
determine the completeness and accuracy of the data. These tests allowed us to assess the
reliability of the data and achieve our audit objective. We also determined the MIRS exception
data was sufficiently reliable to determine some of the records were miscoded.

We conducted our review between July 2013 and March 2014. The entities audited were the
Office of Disability Determinations under the Office of the Deputy Commissioner for Operations
and the Office of Disability Policy 2 under the Office of the Deputy Commissioner for Retirement
and Disability Policy.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Sample Results
Table B–1, Table B–2, and Table B–3 show the projections from our sample of 275 CDR
continuances due to no medical improvement in CY 2012.

                               Table B–1: Population and Sample Size
                               Population Size                        196,183
                               Sample Size                                275




2
  During our audit, SSA’s Offices of Disability Programs and Medical and Vocational Expertise merged to become
the Office of Disability Policy; see SSA Memorandum, Executive Personnel Assignments, December 11, 2013.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                         B-3
Table B–2: Beneficaries Who Would Not Be Disabled Using the Initial Disability Standard
                                         Attribute Projections
              Sample beneficiaries that would not be disabled using
                                                                                                12
              the Initial Disability Standard
              Initial Point estimate                                                         8,561
              Reduced estimate to reflect cessation rate after all
                                                                                             4,024
              appeals SSA reported in Fiscal Year 2011 3
              Projection lower limit                                                        4,979
              Projection upper limit                                                       13,678
            Note: All projections were calculated at the 90-percent confidence level.

    Table B–3: Amount Paid Until Next CDR Due Date to Beneficaries Who Would Not Be
                      Disabled Using the Initial Disability Standard
                                          Dollar Projections
             Sample beneficiaries that would not be disabled using
                                                                                                 12
             the Initial Disability Standard
             Point estimate                                                         $572,651,756
             Reduced estimate to reflect cessation rate after all
                                                                                    $269,146,325
             appeals SSA reported in Fiscal Year 2011
             Projection lower limit                                                 $261,910,087
             Projection upper limit                                                 $883,393,426
            Note: All projections were calculated at the 90-percent confidence level.




3
 SSA, Annual Report on Continuing Disability Reviews Fiscal Year 2011, September 2013. There were
20,281 initial cessations from full medical CDRs for adult beneficiaries. The Agency estimated 9,586 (47 percent)
of these would remain ceased after all appeals.



The Medical Improvement Review Standard During CDRs (A-01-13-23065)                                            B-4
           Appendix C – AGENCY COMMENTS




                                          SOCIAL SECURITY


MEMORANDUM

Date:      May 12, 2014                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Medical Improvement Review Standards
           During Continuing Disability Reviews” (A-01-13-23065) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           The Medical Improvement Review Standard During CDRs (A-01-13-23065)                           C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE MEDICAL IMPROVEMENT REVIEW STANDARD DURING CONTINUING
DISABILITY REVIEWS” (A-01-13-23065)

Recommendation

Identify and correct the cause of the Medical Improvement Review Standard (MIRS) exception
coding issues so the Agency will have accurate information on how often the exceptions are
used.

Response

We agree. We are currently studying several approaches in the coding for MIRS to resolve the
issues involved and prevent them in the future. We will take action to correct the miscoding of
the cases by the end of this calendar year.




The Medical Improvement Review Standard During CDRs (A-01-13-23065)                           C-2
Appendix D – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

Phillip Hanvy, Audit Manager

David Mazzola, Audit Manager

Katie Greenwood, Senior Auditor

Chad Burns, Senior Auditor

Frank Salamone, Senior Auditor

Brennan Kraje, Statistician




The Medical Improvement Review Standard During CDRs (A-01-13-23065)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
